Case: 19-40817

Document: 00515461549

Page: 1

Date Filed: 06/22/2020

IN THE UNITED STATES COURT OF APPEALS
FOR THE FIFTH CIRCUIT
No. 19-40817
A True Copy
Certified order issued Jun 22, 2020

In re: JESUS ANAYA,
Petitioner

dwle Ui.

Clerk, U.S. Court of Ap peals, Fifth Circ
Petition for a Writ of Mandamus to the
United States District Court for the
Southern District of Texas

Before DAVIS, STEWART, and OLDHAM, Circuit Judges.
PER CURIAM:
Jesus Anaya, federal prisoner# 57713-198, has filed in this court a pro
se petition for a writ of mandamus and a motion requesting leave to file his
mandamus petition in forma pauperis (IFP). The motion for leave to proceed
IFP is GRANTED.
Anaya pleaded guilty to maintaining a drug stash house in violation of
21 U.S.C. § 856(a)(2) and was sentenced to a 135-month term of imprisonment.
Anaya appealed to this court, challenging the district court’s denial of a base
offense level reduction under U.S.S.G. § 2D1.8(a)(2) and the substantive
reasonableness of his within-guidelines sentence.

This court affirmed the

district court’s judgment. United States v. Anaya, 592 F. App’x 280, 280-82
(5th Cir. 2014). Anaya, pro se, filed a 28 U.S.C. § 2255 motion, challenging his
sentence, and an amended § 2255 motion through counsel, alleging ineffective
assistance of counsel. The district court denied § 2255 relief on procedural
grounds and alternatively on the merits and denied a certificate of

!

Case: 19-40817

Document: 00515461549

Page: 2

Date Filed: 06/22/2020

No. 19-40817
appealability (COA). In July 2019, this court denied, a COA. In his mandamus
petition, Anaya challenges his conviction and sentence on multiple grounds, all
of which appear to be intertwined with his assertion that the district court
erred in failing to reduce his base offense level under § 2D1.8(a)(2).
“Mandamus is an extraordinary remedy that should be granted only in
the clearest and most compelling cases.” In re Willy, 831 F.2d 545, 549 (5th
Cir. 1987). A party seeking mandamus relief must show both that he has no
other adequate means to obtain the requested relief and that he has a “clear
and indisputable” right to the writ. Id. (internal quotation marks and citation
omitted). Mandamus is not a substitute for appeal. See id. “Where an interest
can be vindicated through direct appeal after a final judgment, this court will
ordinarily not grant a writ of mandamus.” Campanioni v. Barr, 962 F.2d 461,
464 (5th Cir. 1992). Moreover, our mandamus authority does not extend to
directing a district court to reconsider a ruling in a closed case. Cf. Roche v.
Evaporated Milk Assn, 319 U.S. 21, 25 (1943) (limiting mandamus authority
to issuance of writs “in aid of a jurisdiction already acquired by appeal” or “to
those cases which are within [our] appellate jurisdiction although no appeal
has been perfected”).
Anaya does not direct us to, nor does research reveal, any currently
pending district court proceeding in which he has challenged his conviction or
sentence. In his now closed direct appeal, this court affirmed the district
court’s judgment and thereafter denied Anaya a COA to appeal the district
court’s denial of § 2255 relief. Anaya’s remedies, both of which he pursued,
were to appeal from his conviction and to move for relief under § 2255.'Anaya
is not entitled to the extraordinary remedy of a writ of mandamus. See In re
Willy, 831 F.2d at 549.
The petition for a writ of mandamus is DENIED.

2

